fi

C@OQCKLE

. E-Mail Address:
Le ga i Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 E
St. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-235

RICHARD JORDAN ET AL., PETITIONERS
v.
VIRGINIA DEPARTMENT OF CORRECTIONS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 3397 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 7th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

‘
General Notary . Cho,
State of Nebraska hex C6 LM Qudraw- KB. 27
My Commission Expires Nov 24, 2020 <

Notary Public Affiant

 

 

38621
